OIG Audit Report GR-90-06-006

Use of Equitable Sharing Revenues by the Los Angeles County Sheriffs Department
Monterey Park, California

Audit Report GR-90-06-006


June 2006
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the Los Angeles County, California, Sheriffs Department (LASD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1    During the period of July 1, 2003, through June 30, 2005, the LASD was awarded DOJ equitable sharing revenues totaling $6,486,027 to support law enforcement operations.
We reviewed the LASDs compliance with six essential equitable sharing guidelines and found that the LASD generally complied with the guidelines.  However, we found that the LASD did not submit the required Federal Equitable Sharing Agreements and the required Federal Annual Certification Reports by their due dates.
The results of our work are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope and methodology appear in Appendix I.
We discussed the results of our audit with LASD officials and have included their comments in the report as applicable.  In addition, we provided the LASD and the DOJ Criminal Division, Asset Forfeiture and Money Laundering Section, with a draft of our audit report and requested formal responses.



Footnotes

The DOJ asset forfeiture program has three primary goals:  (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, and state and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law enforcement.